   Report No. D-2008-125        September 2, 2008




Summary of Information Assurance Weaknesses Found in
     Audit Reports Issued From August 1, 2007,
                Through July 31, 2008
Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. If you have questions or would
like to obtain additional copies of the final report, contact Mr. Robert R. Johnson at (703)
604-9024 (DSN 664-9024) or Ms. Celia J. Harrigan at (703) 604-9092 (DSN 664-9092).

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
FISMA                  Federal Information Security Management Act
GAO                    Government Accountability Office
HSPD-12                Homeland Security Presidential Directive - 12
NIST                   National Institute of Standards and Technology
OMB                    Office of Management and Budget
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DfllVE
                             ARLINGTON, VIRGINIA 22202-4/04




                                                                      September 2, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                AND INFORMATION INTEGRATION/DOD CHIEF
                INFORMATION OFFICER
              ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGMEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Report on Summary ofInformation Assurance Weaknesses Found in Audit
         Reports Issued From August 1,2007, Through July 31, 2008 (Report No, D-
         2008-125)

We are providing this summary report for information and use, We did not issue a draft
report because this report summarizes material that has already been published. This
report contains no recommendations; therefore, no written response to this report was
required, and none was received.

We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Robert R. Johnson at (703) 604-9024 (DSN 664-9024) or Celia Harrigan at (703)
604-9092 (DSN 664-9092). If you desire, we will provide formal briefing on the results.
See Appendix G for the report distribution. See team members are listed inside the back
cover.
                    Report No. D-2008-125 (Project No. D2008-D000LB-0128.000)
                                        September 2, 2008


               Results in Brief: Summary of Information
               Assurance Weaknesses Found in Audit
               Reports Issued From August 1, 2007,
               Through July 31, 2008


What We Did                                           What We Found
This report summarizes information assurance          Between August 1, 2007, and July 31, 2008, the
weaknesses that the DoD Office of Inspector           DoD Office of Inspector General, Army Audit
General, Army Audit Agency, Naval Audit               Agency, Naval Audit Service, Air Force Audit
Service, Air Force Audit Agency, and                  Agency, and Government Accountability Office
Government Accountability Office reported             issued 21 reports addressing a wide range of
between August 1, 2007, and July 31, 2008. It         information assurance weaknesses that persist
supports the DoD Office of Inspector General          throughout DoD systems and networks. If these
response to the Federal Information Security          weaknesses continue, they will impede the
Management Act (FISMA) of 2002, which                 ability of DoD to mitigate risks in a shared
requires that agencies submit to the Office of        information technology environment. Those
Management and Budget the results of an               risks include unauthorized access to information
annual independent evaluation of the                  or information systems and their consequent
effectiveness of their information security           loss, misuse, or modification. A loss of
programs and practices.                               information is itself unacceptable and could
                                                      result in loss of mission effectiveness.
The evaluation should include testing of the
effectiveness of information security policies,       What We Recommend
procedures, and practices of a subset of the
agency’s information systems and may be               This report contains no new recommendations
based, in whole or in part, on an audit,              because they were made in the reports we list in
evaluation, or report relating to agency              this summary.
programs or practices.
                                                      Client Comments
This report is the 10th information assurance         We did not issue a draft report because this
summary report issued by the DoD Office of            report summarizes material that has already
Inspector General since January 1999.                 been published. No written response to this
                                                      report is required.




                                                  i
Table of Contents

Results in Brief                                                                 i

Introduction                                                                     1

      Objectives                                                                1
      Background                                                                1

Finding. Information Assurance Weaknesses Persist Throughout DoD                 3

Appendixes
      A.     Scope and Methodology                                               7
      B.     Prior Coverage                                                      9
      C.     Glossary                                                           11
      D.     Audit Reports Issued From August 1, 2007, Through July 31, 2008,
                 Identifying Information Assurance Weaknesses                   13
      E.     Matrix of Information Assurance Weaknesses Reported From
                 August 1, 2007, Through July 31, 2008                          15
      F.     Audit Reports From Prior Information Assurance Summary Reports
                 With Unresolved Recommendations                                17
      G.     Report Distribution                                                21
Introduction
Objectives
This is one in a series of summary reports that the DoD IG has issued annually since
1999. The overall objective was to summarize reports by the DoD audit community and
Government Accountability Office (GAO) between August 1, 2007, and July 31, 2008.
This summary report supports the DoD IG response to the requirements of FISMA. See
Appendix A for a discussion of the scope and methodology, and Appendix B for prior
coverage related to the objective.

Background
This report is the 10th annual Information Assurance (IA) summary the DoD IG has
issued since January 1999. The 10 IA reports summarize 426 reports on IA weaknesses.

This report supports the DoD IG response to section 3545 of Public Law 107-347, Title
III, “Federal Information Security Management Act,” December 17, 2002, requiring
agencies to submit the results of an annual independent evaluation of the effectiveness of
their information security policies, procedures, and practices to the Office of
Management and Budget (OMB). The evaluation results may be based, in whole or in
part, on an audit, evaluation, or report relating to agency programs and practices.

Privacy Act of 1974
The intent of the Privacy Act of 1974, section 552a (as amended), Title 5, United States
Code (5 U.S.C. 552a), is to require Federal agencies to protect individuals against
unwarranted invasions of their privacy by limiting the collection, maintenance, use, and
disclosure of personal information about them. The Act requires that Federal agencies
establish information practices that restrict disclosure of personally identifiable records
and grants individuals increased access to agency records maintained on them. The
E-Government Act of 2002 additionally requires that Federal agencies protect the
collection of personal information in Federal Government information systems by
conducting Privacy Impact Assessments. A Privacy Impact Assessment is an analysis of
how personal information is collected, stored, shared, and managed in Federal
information technology systems.

Federal Information Security Management Act
FISMA provides a comprehensive framework for ensuring the effectiveness of IA
controls over information resources that support Federal operations and assets. FISMA
requires that each agency develop, document, and implement an agency-wide IA program
to provide IA for the information and information systems that support the operations and
assets of the agency. Each agency is to comply with FISMA and related policies,
procedures, standards, and guidelines, including the information security standards
promulgated under 40 U.S.C. 11331, “Responsibilities for Federal information systems




                                             1
 standards.” Under 40 U.S.C. 11331, standards and guidelines for Federal information
systems are to be based on standards and guidelines developed by the National Institute
of Standards and Technology (NIST).

National Institute of Standards and Technology
To meet its statutory responsibilities under FISMA, NIST, part of the U.S. Department of
Commerce, developed a series of standards and guidelines to provide IA for operations
and assets of Federal agencies. Specifically, the Computer Security Division of the
Information Technology Laboratory developed computer security prototypes, tests,
standards, and procedures designed to protect sensitive information from unauthorized
access or modification. Focus areas include cryptographic technology and applications,
advanced authentication, public key infrastructure, internetworking security, criteria and
assurance, and security management and support. The standards and guidelines present
the results of NIST studies, investigations, and research on information technology
security.

DoD Information Assurance Guidance
DoD IA guidance includes the following directives and instructions.


   •   DoD Directive 5400.11, “DoD Privacy Program,” May 8, 2007, which establishes
       policy for the respect and protection of an individual’s personal information and
       fundamental right to privacy;

   •   DoD Directive 8500.01E, “Information Assurance,” October 24, 2002, which
       establishes policy and assigns responsibility to achieve IA throughout DoD;

   •   DoD Directive 8570.1, “Information Assurance Training, Certification, and
       Workforce Management,” August 15, 2004, which establishes policy and assigns
       responsibility for DoD IA training, certification, and workforce management;

   •   DoD Instruction 8500.2, “Information Assurance (IA) Implementation,” February
       6, 2003, which implements the policy, assigns responsibilities, and prescribes
       procedures for applying integrated layered protection of DoD information systems
       and networks as outlined in DoD Directive 8500.01E; and

   •   DoD Instruction 8510.01, “DoD Information Assurance Certification and
       Accreditation Process (DIACAP),” November 28, 2007, which establishes a
       certification and accreditation process.




                                            2
Finding. Information Assurance Weaknesses
Persist Throughout DoD
Between August 1, 2007, and July 31, 2008, the DoD audit community and GAO issued
21 reports addressing a wide range of IA weaknesses that persist throughout DoD
systems and networks.1 This report summarizes those reports. If the IA weaknesses
continue, they will impede the ability of DoD to mitigate risks in a shared information
technology environment. Those risks include harm resulting from loss, misuse,
unauthorized access, and modification of information or information systems. A loss of
information in DoD information systems is itself unacceptable and could undermine
mission effectiveness.

Reports on Information Assurance Weaknesses
The weaknesses identified in reports by the DoD audit community and GAO were
defined by FISMA, Homeland Security Presidential Directive – 12, OMB memoranda,
NIST standards and guidelines, and DoD guidance. The following table shows the
number of DoD audit community and GAO reports, by agency, that identify weaknesses
in IA areas. See Appendix C for a glossary of specialized terms.

               Audit Reports Identifying Information Assurance Weaknesses
                          (August 1, 2007, through July 31, 2008)
                                                                  Military
                    IA Areas                   GAO DoD IG Departments Total

           Access Controls                              0          3             6    9
           Certification and Accreditation              1          1             2    4
           Configuration Management                     1          3             4    8
           Contingency Plans                            0          1             1    2
           Continuity of Operations Plans               0          2             2    4
           Information Systems
               Inventory Reporting                      1          0             2    3
           Incident Handling                            0          2             0    2
           Personnel Security                           0          2             0    2
           Physical Security                            0          3             0    3
           Plan of Action and Milestones                1          1             1    3
           Privacy Act Information                      0          3             1    4
           Risk, Threat, and Vulnerability
               Assessment                               0          0             5    5
           Security Awareness, Training,
               Education                                1          1             2    4
           Security Policies and Procedures/
               Management Oversight                     2          5             8   15




1
    DoD IG reported similar IA weaknesses in nine previous IA summary reports.


                                                    3
Types of Weaknesses
Reports issued during the reporting period most frequently cited weaknesses in the
following IA areas: access controls; configuration management; risk, threat, and
vulnerability assessments; privacy act information; and policies and
procedures/management oversight. See Appendix D for a list of reports reviewed for this
IA summary report and Appendix E for a matrix of the specific IA weaknesses listed by
report.

Access Controls
Access controls limit access to information system resources to authorized users,
programs, processes, or other systems. The DoD audit community reported weaknesses
related to access controls in nine reports. The weaknesses related to:

•   user account management, for example, management did not always update
    privileges, document multiple systems access, perform system access reviews, or
    develop a role-based access scheme for assigning rights;
•   controls over segregation of duties, validity checks, and error reporting, which needed
    improvement; and
•   development and implementation of the required audit trail for recording changes in
    user access and permissions.

Configuration Management
Configuration management is management of security features and assurances through
control of changes made to hardware, software, firmware, documentation, test, test
fixtures, and test documentation throughout the life cycle of an information system. The
DoD audit community identified weaknesses related to configuration management in
eight reports. The reports identified such weaknesses as the following:

•   the Army, Air Force, and Navy are still in the initial stage of adopting GAO’s
    architecture maturity framework;
•   hardware being used does not meet the established minimum encryption
    requirements; and
•   implementation of information system migration policy is ineffective.

Risk, Threat, and Vulnerability Assessments
The reports identified weaknesses in performing risk, threat, and vulnerability
assessments that could be used as a basis for identifying appropriate and cost-effective
security measures. The DoD audit community reported weaknesses relating to risk,
threat, and vulnerability assessments in five issued reports.




                                             4
Privacy Act Information
Agencies are required to limit the collection, maintenance, use, and disclosure of privacy
information on individuals. The DoD audit community identified weaknesses related to
Privacy Act information in four reports. The reports identified weaknesses related to:

•   notifying the public of the risk of unauthorized disclosure of Personally Identifiable
    Information;

•   displaying the full Social Security Number on the Geneva Convention Credential,
    increasing the risk of identity theft; and

•   not implementing controls over property that contains sensitive or classified
    personally identifiable information.

Policies and Procedures/Management Oversight
The audit reports identified weaknesses in policies and procedures/management
oversight. The DoD audit community and GAO reported weaknesses relating to
management oversight in 15 issued reports. One report containing numerous examples of
management oversight weaknesses pertained to the implementation of Homeland
Security Presidential Directive (HSPD-12).

On August 27, 2004, President Bush directed Federal agencies to implement a
Government-wide standard for secure and reliable forms of identification for Government
employees and contractors to increase the security of Federal facilities and information
systems. DoD IG Report No. D-2008-104 found that DoD has not met key HSPD-12
implementation milestones for completion of background checks, verification of
completed or initiated background checks, or Government-wide interoperability.
Additionally, DoD must modify its current Geneva Convention Personal Identity
Verification credential to reduce the potential for identity fraud. The DoD’s continued
deferment of full implementation of HSPD-12 is preventing DoD Components from
realizing the intended benefits of improving security, increasing Government efficiency,
reducing identity fraud, increasing protection of personal privacy, and reducing potential
for terrorist exploitation.

Unresolved Recommendations
The nine previous IA annual reports summarized 405 reports on IA weaknesses
throughout DoD. Of those 405 reports, 50 have unresolved recommendations, meaning
management has not yet corrected agreed-upon IA weaknesses more than 12 months
following the report issue date. Prompt action to correct the outstanding weaknesses is
necessary to mitigate ongoing vulnerabilities in the DoD IA program. See Appendix F
for a listing of reports with unresolved recommendations relating to IA weaknesses.




                                             5
Conclusions
Many of the weaknesses reported occurred because management of security programs
was inadequate and security policies and procedures were not in place. Without effective
management oversight, DoD cannot be assured that systems are accurately reported and
maintained, information systems portray accurate and reliable data, and personnel are
properly trained in security policies and procedures. Effective management oversight
may reduce the risk of persistent IA weaknesses, thereby increasing assurance that DoD
information systems maintain an appropriate level of confidentiality, integrity,
authentication, nonrepudiation, and availability.




                                           6
Appendix A. Scope and Methodology
This report summarizes the DoD IA weaknesses identified in 21 reports that GAO and
the DoD audit community issued from August 1, 2007, through July 31, 2008. To
prepare this summary, we reviewed the Web sites of GAO and each component audit
organization, as well as requested reports discussing IA weaknesses from these
organizations. We also reviewed prior IA summary reports and, with the assistance of
DoD audit community and GAO follow-up organizations, summarized reports with
unresolved recommendations on IA weaknesses.

This summary report does not make recommendations because they were made in the
summarized reports. We did not follow generally accepted government auditing
standards in conducting this project because it is a summary project. We did not
summarize congressional testimonies because our review of IA testimonies issued during
the reporting period identified that the testimonies did not apply specifically, if at all, to
DoD. Also, we did not include independent tests of management controls or validate the
information or results reported in the summarized reports. This summary report supports
the DoD IG responses to the OMB questions relating to FISMA. We conducted this
summary work from February through August 2008.

Use of Computer-Processed Data
We did not use computer-processed data when compiling information for this summary
report.




                                              7
8
Appendix B. Prior Coverage
DoD IG has issued nine information security summary reports. Unrestricted DoD IG
reports can be accessed at http://www.dodig.osd.mil/audit/reports. The remainder of the
reports are For Official Use Only and can be obtained by contacting the Freedom of
Information Act Requester Service Center at (703) 604-9775 (DSN 664-9775) or fax
(703) 602-0294.

DoD IG Report No. D-2007-123, “Summary of Information Assurance Weaknesses
Found in Audit Reports Issued from August 1, 2006, Through July 31, 2007,” September
12, 2007

DoD IG Report No. D-2006-110, “Summary of Information Assurance Weaknesses
Found in Audit Reports Issued from August 1, 2005, through July 31, 2006,” September
14, 2006

DoD IG Report No. D-2005-110, “Summary of Information Security Weaknesses
Reported by Major Oversight Organizations From August 1, 2004, through July 31, 2005
(FOUO),” September 23, 2005

DoD IG Report No. D-2004-116, “Information Security Weaknesses Reported by Major
Oversight Organizations From August 1, 2003, through July 31, 2004 (FOUO),”
September 23, 2004

DoD IG Report No. D-2004-038, “Information Assurance Challenges – A Summary of
Results Reported from August 1, 2002, through July 31, 2003 (FOUO),” December 22,
2003

DoD IG Report No. D-2003-024, “Information Assurance Challenges – An Evaluation of
Audit Results Reported From August 23, 2001, through July 31, 2002 (FOUO),”
November 21, 2002

DoD IG Report No. D2001-182, “Information Assurance Challenges – A Summary of
Audit Results Reported April 1, 2000, through August 22, 2001 (FOUO),” September 19,
2001

DoD IG Report No. D2000-124, “Information Assurance Challenges – A Summary of
Audit Results Reported December 1, 1998, through March 31, 2000 (FOUO),” May 15,
2000

DoD IG Report No. 99-069, “Summary of Audit Results – DoD Information Assurance
Challenges,” January 22, 1999




                                           9
10
Appendix C. Glossary
Access Controls – Access controls limit information system resources to authorized
users, programs, processes, or other systems.
Audit Trail – An audit trail is a chronological record of system activities that enable the
reconstruction and examination of the sequence of events and/or changes in an event.
Certification and Accreditation – Certification and accreditation is a combined process
that makes up the DoD Information Assurance Certification and Accreditation Process.
   •   Accreditation – Accreditation is the formal declaration by a designated
       accrediting authority that an information system is approved to operate in a
       particular security mode at an acceptable level of risk, based on the
       implementation of an approved set of technical, managerial, and procedural
       safeguards.
   •   Certification – Certification is a comprehensive evaluation of the technical and
       nontechnical security safeguards of an information system to support the
       accreditation process that establishes the extent to which a particular design and
       implementation meets a set of specified security requirements.
Configuration Management – Configuration management is the management of
security features and assurances through control of changes made to hardware, software,
firmware, documentation, test, test fixtures, and test documentation throughout the life
cycle of an information system.
Contingency Plan – A contingency plan is maintained for emergency response, backup
operations, and post-disaster recovery of an information system to ensure the availability
of critical resources and to facilitate the continuity of operations in an emergency
situation.
Continuity of Operations Plan – A continuity of operations plan is a plan for continuing
an organization’s essential functions at an alternate site and performing those functions
for the duration of an event with little or no loss of continuity before returning to normal
operations.
Information Systems Inventory Reporting – The head of each agency must develop
and maintain an inventory of major information systems, including major national
security systems, operated by or under the control of the agency. The inventory of
information systems or networks should include those not operated by or under the
control of the agency.
Incident Response – Also known as incident handling, incident response is the
mitigation of violations of security policies and recommended practices.
Personnel Security – The objective of the Personnel Security Program is to ensure that
the military, civilian, and contractor personnel assigned to and retained in sensitive
positions in which they could potentially damage national security are, and remain,


                                            11
reliable and trustworthy, and no reasonable basis exists for doubting their allegiance to
the United States. Assignment to sensitive duties is granted only to individuals who are
U.S. citizens and for whom an appropriate investigation has been completed.
Physical Security – Physical security refers to measures taken to protect systems,
buildings, and related supporting infrastructure against threats associated with their
physical environment.
Plan of Action and Milestones – A plan of action and milestones is a tool that identifies
tasks that need to be accomplished. A plan of action and milestones details resources
required to accomplish the elements of the plan, any milestones in meeting the task, and
scheduled completion dates for the milestones. The purpose of a plan of action and
milestones is to assist agencies in identifying, assessing, prioritizing, and monitoring the
progress of corrective efforts for security weaknesses found in programs and systems.
Policies and Procedures – Policies and procedures are the aggregate of directives,
regulations, rules, and practices that regulate how an organization manages, protects, and
distributes information. Information security policy can be contained in public laws,
Executive orders, DoD Directives, and local regulation.

Privacy Act Information – Privacy Act information is personal information about an
individual that links, relates, or is unique to or identifies or describes him or her, such as
Social Security number; age; military rank; civilian grade; marital status; race; salary;
home or office phone numbers; and other demographic, biometric, personal, medical, and
financial information. This information is also referred to as personally identifiable
information, or that which can be used to distinguish or trace an individual’s identity.
Risk Assessment – Risk assessment is an analysis of threats to and vulnerabilities of
information systems and the potential impact resulting form the loss of an information
system and its capabilities. The analysis is used as a basis for identifying appropriate and
cost-effective security measures.
Security Awareness, Training, and Education
   •   Awareness – Awareness is a learning process that sets the stage for training by
       changing individual and organization attitudes to realize the importance of
       security and the adverse consequences of its failure.
   •   Training – Training is teaching people the knowledge and skills about
       information security that will enable them to perform their jobs more effectively.
   •   Education – Education focuses on developing the ability and vision to perform
       complex, multidisciplinary activities and the skills needed to further the
       information technology security profession. Education activities include research
       and development to keep pace with changing technologies.
Segregation of Duties – Segregation of duties refers to dividing roles and responsibilities
so that a single individual cannot subvert a critical process.




                                             12
Appendix D. Audit Reports Issued From
August 1, 2007, Through July 31, 2008,
Identifying Information Assurance
Weaknesses
GAO
GAO Report No. GAO-07-528, “Information Security - Selected Departments Need to
Address Challenges in Implementing Statutory Requirements,” August 2007

GAO Report No. GAO-08-519, “DoD Business Systems Modernization - Military
Departments Need to Strengthen Management of Enterprise Architecture Programs,”
May 2008

GAO Report No. GAO-08-705, “DoD Business Systems Modernization - Progress in
Establishing Corporate Management Controls Needs to be Replicated Within Military
Departments,” May 2008

DoD IG
DoD IG Report No. D-2008-047, “Contingency Planning for DoD Mission-Critical
Information Systems,” February 5, 2008

DoD IG Report No. D-2008-077, “United States Army Corps of Engineers Financial
Management System,” April 08, 2008 (FOUO)

DoD IG Report No. D-2008-101, “General Controls Over the Standard Accounting,
Budgeting, and Reporting System (SABRS),” June 6, 2008

DoD IG Report No. D-2008-104, “DoD Implementation of Homeland Security
Presidential Directive-12,” June 23, 2008
DoD IG Report No. D-2008-109, “Controls and Compliance of the Joint Personnel
Adjudication System,” July 21 2008 (FOUO)

DoD IG Report No. D-2008-114, “Accountability for Defense Security Service Assets
With Personally Identifiable Information,” July 24, 2008

Army Audit Agency
Army Audit Agency Report No. A-2007-0223-FFI, “Installation Campus Area Network
Connectivity - Wireless Devices, Redstone Arsenal, Alabama” (FOUO), 28 September
2007

Army Audit Agency Report No. A-2007-0225-FFI, “Installation Campus Area Network
Connectivity - Wireless Devices, Fort Knox, Kentucky” (FOUO), 28 September 2007

Army Audit Agency Report No. A-2008-0186-FFI, “Installation Campus Area Network
Connectivity - Wireless Devices - Summary Report,” July 8, 2008


                                         13
Naval Audit Service
Naval Audit Service Report No. N2008-0022, “Management of Privacy Act Information
at the Navy Recruiting Command,” February 14, 2008 (FOUO)

Naval Audit Service Report No. NAS Report No. N2008-0023, “Information Security
within the Marine Corps,” February 20, 2008 (FOUO)

Air Force Audit Agency
Air Force Audit Agency Report No. F2007-0009-FB4000, “Continuity of Operations
Plans For Computer Networks” (FOUO), August 24, 2007

Air Force Audit Agency Report No. F2008-0002-FB2000, “Web Content Migration to
The Global Combat Support Systems-Air Force Framework,” February 22, 2008

Air Force Audit Agency Report No. F2008-0003-FB2000[1], “Enterprise Information
Technology Data Repository Effectiveness As Portfolio Management Tool,” February
25, 2008

Air Force Audit Agency Report No. F2008-0003-FB4000, “Air Force Portal Access and
Rights Management” (FOUO), February 22, 2008

Air Force Audit Agency Report No. F2008-0002-FB1000, “Follow-up Audit,
Comptroller Quality Assurance Program,” April 1, 2008

Air Force Audit Agency Report No. F2008-0004-FB4000, “Information Systems
Inventory” (FOUO), June 4, 2008

Air Force Audit Agency Report No. F2008-0007-FD1000, “Hurricane Disaster
Planning,” June 4, 2008




                                        14
Appendix E. Matrix of Information
Assurance Weaknesses Reported From
August 1, 2007, Through July 31, 2008




                                                                                                                                                                                                                                                                                                                 Security Policies and Procedures/
                                                                                                                                                                                                                                                                                                                 Risk, Threat, and Vulnerability
                                          Certification and Accreditation




                                                                                                                          Continuity of Operations Plans




                                                                                                                                                                                                                                                      Plan of Actions and Milestones




                                                                                                                                                                                                                                                                                                                 Security Awareness, Training,
                                                                                                                                                           Federal Information Systems
                                                                            Configuration Management




                                                                                                                                                                                                                                                                                       Privacy Act Information




                                                                                                                                                                                                                                                                                                                 Management Oversight
                                                                                                                                                           Inventory Reporting



                                                                                                                                                                                                             Personnel Security
                                                                                                                                                                                         Incident Handling
                                                                                                       Contingency Plan




                                                                                                                                                                                                                                  Physical Security
                        Access Controls




                                                                                                                                                                                                                                                                                                                 Assessment

                                                                                                                                                                                                                                                                                                                 Education
      Agency
    Report No.
    Government
Accountability Office
    GAO-07-528                            X                                                                                                                       X                                                                                   X                                                                        X          X
    GAO-08-519                                                              X
    GAO-08-705                                                                                                                                                                                                                                                                                                                            X
      Office of
Inspector General of
      the DoD
     D-2008-047                                                                                        X                                                                                                                                                                                                                                  X
     D-2008-077         X                                                   X                                             X                                                              X                                        X                                                                                            X          X
     D-2008-101         X                                                                                                                                                                                                                                                                                                                 X
     D-2008-104                                                             X                                                                                                                                X                    X                   X                                X                                                  X
     D-2008-109         X                 X                                 X                                             X                                                              X                   X                    X                                                    X                                                  X
     D-2008-114                                                                                                                                                                                                                                                                        X
     Army
  Audit Agency
 A-2007-0223-FFI        X                                                   X                                                                                                                                                                                                                                      X                      X
 A-2007-0225-FFI        X                                                   X                                                                                                                                                                                                                                      X                      X
 A-2008-0186-FFI        X                                                   X                                                                                                                                                                                                                                      X           X          X

Naval Audit Service

   N2008-0022                                                                                                                                                                                                                                                                          X
   N2008-0023           X                 X                                                                               X                                                                                                                           X                                                            X           X          X
  Air Force Audit
      Agency
F2007-0009-FB4000                                                                                                         X
F2008-0002-FB2000                                                           X                                                                                                                                                                                                                                                             X



                                                                                                                                                 15
                                                                                                               Agency
                                                                                                              Report No.




                              F2008-0004-FB4000
                                                  F2008-0002-FB1000
                                                                                          F2008-0003-FB2000
                                                                      F2008-0003-FB4000




          F2008-0007-FD1000

     9
                                                  X
                                                                      X
                                                                                                              Access Controls




     4
                              X
                                                                                                              Certification and Accreditation




     8
                                                                                                              Configuration Management




     2
          X
                                                                                                              Contingency Plan



     4
                                                                                                              Continuity of Operations Plans




16
     3                                                                                                        Federal Information Systems
                              X
                                                                                          X




                                                                                                              Inventory Reporting
     2

                                                                                                              Incident Handling
     2



                                                                                                              Personnel Security
     3




                                                                                                              Physical Security
     3




                                                                                                              Plan of Actions and Milestones
     4




                                                                                                              Privacy Act Information
                                                                                                              Risk, Threat, and Vulnerability
     5
                                                  X




                                                                                                              Assessment
                                                                                                              Security Awareness, Training,
     4




                                                                                                              Education
                                                                                                              Security Policies and Procedures/
          X
                                                  X
                              X



     15




                                                                                                              Management Oversight
Appendix F. Audit Reports From Prior
Information Assurance Summary Reports
With Unresolved Recommendations
IA weaknesses continue to exist throughout DoD. Of the 405 reports included in 9 prior
IA summary reports, 50 had unresolved recommendations; management had not
corrected agreed-upon IA weaknesses within 12 months of the report issue date. The list
of reports with unresolved recommendations was compiled based on information GAO
and the DoD audit community provided in July 2008 and may be incomplete because of
the extent of information maintained in their respective follow-up systems.

GAO
GAO Report No. GAO-06-31, “The Defense Logistics Agency Needs to Fully Implement
Its Security Program,” October 7, 2005

DoD IG
DoD IG Report No. D-2007-099, “Report on Audit of Privacy Program and Privacy
Impact Assessments,” June 13, 2007

DoD IG Report No. D-2007-089, “Selected Controls for Information Security of the
U.S. Transportation Command’s Integrated Computerized Deployment System (FOUO),”
April 30, 2007

DoD IG Report No. D-2007-082, “Defense Information Systems Agency Controls over
the Center for Computing Services,” April 9, 2007

DoD IG Report No. D-2007-040, “The General and Application Controls over the
Financial Management System at the Military Sealift Command,” January 2, 2007

DoD IG Report No. D-2007-039, “Audit of Information Assurance of Missile Defense
Agency Information Systems (FOUO),” December 21, 2006

DoD IG Report No. D-2007-025, “Acquisition of the Pacific Mobile Emergency Radio
System (FOUO),” November 22, 2006

DoD IG Report No. D-2007-006, “Hurricane Katrina Disaster Recovery Efforts Related
to Army Information Technology Resources,” October 19, 2006

DoD IG Report No. D-2006-107, “Defense Departmental Reporting System and Related
Financial Statement Compilation Process Controls Placed in Operation and Tests of
Operating Effectiveness for the Period October 1, 2004, through March 31, 2005
(FOUO),” August 18, 2006




                                          17
DoD IG Report No. D-2006-096, “Select Controls for the Information Security of the
Command and Control Battle Management Communications System (FOUO),” July 14,
2006

DoD IG Report No. D-2006-079, “Review of the Information Security Operational
Controls of the Defense Logistics Agency’s Business Systems Modernization Energy,”
April 24, 2006

DoD IG Report No. D-2006-078, “Defense Information Systems Agency Encore II
Information Technology Solutions Contract (FOUO),” April 21, 2006

DoD IG Report No. D-2006-069, “Technical Report on the Defense Business
Management System (FOUO),” April 3, 2006

DoD IG Report No. D-2006-060, “System Engineering Planning for the Ballistic Missile
Defense System (FOUO),” March 3, 2006

DoD IG Report No. D-2006-053, “Select Controls for the Information Security of the
Ground-Based Midcourse Defense Communications Network,” February 24, 2006

DoD IG Report No. D-2006-052, “DoD Organization Information Assurance
Management of Information Technology Goods and Services Acquired Through
Interagency Agreement,” February 23, 2006

DoD IG Report No. D-2006-046, “Technical Report on the Defense Property
Accountability System (FOUO),” January 27, 2006

DoD IG Report No. D-2006-042, “Security Status for Systems Reported in DoD
Information Technology Databases,” December 30, 2005

DoD IG Report No. D-2006-030, “Report on Diagnostic Testing at the Defense
Information Systems Agency, Center for Computing Services (FOUO),” November 30,
2005

DoD IG Report No. D-2006-003, “Security Controls Over Selected Military Health
System Corporate Databases (FOUO),” October 7, 2005

DoD IG Report No. D-2005-099, “Status of Selected DoD Policies on Information
Technology Governance,” August 19, 2005

DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance Certification
and Accreditation Process (FOUO),” July 21, 2005

DoD IG Report No. D-2005-069, “Audit of the General and Application Controls of the
Defense Civilian Pay System (FOUO),” May 13, 2005

DoD IG Report No. D-2005-054, “Audit of the DoD Information Technology Security
Certification and Accreditation Process (FOUO),” April 28, 2005

DoD IG Report No. D-2005-033, “Implementation of Interoperability and Information
Assurance Policies for Acquisition of Navy Systems,” February 2, 2005

DoD IG Report No. D-2004-041, “The Security of the Army Corps of Engineers
Enterprise Infrastructure Services Wide-Area Network (FOUO),” December 26, 2003

                                         18
DoD IG Report No. D-2004-008, “Implementation of Interoperability and Information
Assurance Policies for Acquisition of Army Systems,” October 15, 2003

DoD IG Report No. D-2003-134, “System Security of the Army Corps of Engineers
Financial Management System (FOUO),” September 15, 2003

DoD IG Report No. D-2001-148, “Automated Transportation Payments,” June 22, 2001

DoD IG Report No. D-2001-141, “Allegations to the Defense Hotline on the Defense
Security Assistance Management System,” June 19, 2001

Army Audit Agency
Army Audit Agency Report No. A-2006-0199-FFI, “Installation Campus Area Network
Connectivity - Terrestrial-Based Connections,” September 29, 2006

Army Audit Agency Report No. A-2006-0181-FFI, “Installation Campus Area Network
Connectivity - Wireless Networks (U.S. Army Garrison, Aberdeen Proving Ground,
Maryland),” September 28, 2006

Naval Audit Services
Naval Audit Service Report No. N2007-0017, “Ordnance Information System (FOUO),”
February 28, 2007

Naval Audit Services Report No. N2005-0049, “Information Security Controls at Naval
Shipyards,” July 7, 2005

Naval Audit Services Report No. N2005-0036, “Verification of the Reliability and
Validity of the Navy Enlisted System Data (FOUO),” March 30, 2005

Naval Audit Services Report No. N2004-0063, “Information Security - Operational
Controls at Naval Aviation Depots,” July 9, 2004

Naval Audit Services Report No. N2003-0012, “Verification of the Reliability and
Validity of the Department of the Navy’s Total Force Manpower Management System
(TFMMS) Data,” November 8, 2002

Air Force Audit Agency
Air Force Audit Agency Report No. F2007-0005-FB2000, “Standard Base Supply
System Controls,” July 13, 2007

Air Force Audit Agency Report No. F2007-0004-FB2000, “Reliability, Availability,
Maintainability Support System for Electronic Combat Pods System Controls,”
May 25, 2007

Air Force Audit Agency Report No. F2007-0004-FB4000, “Security of Remote
Computer Devices (FOUO),” March 13, 2007

Air Force Audit Agency Report No. F2007-0001-FB4000, “Selected Aspects of
Computer Network Intrusion Detection (FOUO),” December 12, 2006




                                          19
Air Force Audit Agency Report No. F2006-0011-FB2000, “Air Force Equipment
Management System Controls,” September 25, 2006

Air Force Audit Agency Report No. F2006-0009-FB2000, “Contract Writing System
Controls,.” August 3, 2006

Air Force Audit Agency Report No. F2006-0008-FB2000, “System Controls for Item
Manager Wholesale Requisition Process System,” June 21, 2006

Air Force Audit Agency Report No. F2006-0007-FB2000, “Missile Readiness Integrated
Support Facility/Integrated Missile Database System Controls,” May 30, 2006

Air Force Audit Agency Report No. F2006-0006-FB2000, “Controls for the Wholesale
and Retail Receiving and Shipping System,” May 19, 2006

Air Force Audit Agency Report No. F2006-0004- FB2000, “Implementation of Selected
Aspects of Security in Air Force Systems,” April 17, 2006

Air Force Audit Agency Report No. F2004-0006-FB2000, “System Controls for
Reliability and Maintainability Information System,” September 27, 2004

Air Force Audit Agency Report No. F2004-0006-FB4000, “Visibility of Air Force
Information Technology Resources,” May 4, 2004

Air Force Audit Agency Report No. 00054006, “Air Force Restoration Information
Management System Controls,” May 18, 2001




                                        20
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Intelligence Oversight/Chief Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Chief Information Officer, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force

Unified Commands
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Southern Command


                                           21
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Chief Information Officer, American Forces Information Service
Chief Information Officer, Business Transformation Agency
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Finance and Accounting Service
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Education Activity
Chief Information Officer, DoD Human Resources Activity
Chief Information Officer, DoD Inspector General
Chief Information Officer, DoD Test Resource Management Center
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert R. Johnson
Celia J. Harrigan
Bryan T. Clark
Liz Scullin
